   Report No. D-2009-022          November 14, 2008




Base Realignment and Closure 2005 Military Construction
   Project To Consolidate and Relocate Service Media
           Activities to Fort Meade, Maryland
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ACSIM                         Assistant Chief of Staff for Installation Management
AFIS                          American Forces Information Service
BRAC                          Base Realignment and Closure
DMA                           Defense Media Activity
IG                            Inspector General
MILCON                        Military Construction
                                     INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704                November 14, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                  FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE MEDIA ACTIVITY
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Base Realignment and Closure 2005 Military Construction Project To Consolidate
         and Relocate Service Media Activities to Fort Meade, Maryland
         (Report No. D-2009-022)


We are providing this report for your information and use. We performed the audit in response to
a request from the Director, Defense Media Activity Transition Team. We considered comments
from the Army Office of the Assistant Chief of Staff for Installation Management and the Defense
Media Activity when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3 and
left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to Ms. Deborah L. Culp
at (703) 604-9335 (DSN 664-9335) or Ms. Gwynne Roberts at (703) 604-9308 (DSN 664-9308).
The team members are listed inside the back cover.
                                                                                        ,


                                            Richard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
                   Report No. D-2009-022 (Project No. D2007-D000CG-0047.003)
                                       November 14, 2008

              Results in Brief: Base Realignment and
              Closure 2005 Military Construction Project
              To Consolidate and Relocate Service Media
              Activities to Fort Meade, Maryland

What We Did                                           What We Recommend
Base Realignment and Closure (BRAC)                   We recommend that the Army Assistant Chief
Recommendation 141 consolidates and relocates         of Staff for Installation Management:
Service media activities from various locations       • Notify the proper authorities of cost changes
to Fort Meade, Maryland. We determined the                and revisions to internal documentation to
accuracy of the 2005 BRAC military                        eliminate the excess square footage resulting
construction budget data for BRAC                         from double-counting of Marine Corps
Recommendation 141. Specifically, we                      News personnel.
determined whether the proposed military              • Request the U.S. Marine Corps pay its share
construction project was based on valid BRAC              of about 2.75 percent of the project costs for
requirements and whether the proposed military            including U.S. Marine Corps News
construction project was supported with                   personnel in Base Realignment and Closure
required documentation, including an economic             Military Construction Project 64952,
analysis that considered existing facilities.             “Defense Media Activity.”
                                                      • For future Base Realignment and Closure
What We Found                                             projects, follow the DoD Financial
The Army generally had a valid BRAC                       Management Regulation and Army
requirement for BRAC Military Construction                Instructions by conducting an economic
Project 64952, “Defense Media Activity.”                  analysis when the project is first considered,
However, the Army:                                        justifying the user needs and unit cost with
• lowered the square footage and cost                     supporting documentation, and properly
   estimates of BRAC Military Construction                reviewing and validating the
   Project 64952, “Defense Media Activity,” it            DD Form 1391.
   originally submitted to Congress;
• included double-counted personnel in the            Client Comments and Our
   project;                                           Responses
• included an organization that was not               The Army concurred with all three
   mentioned in BRAC Recommendation 141;              recommendations, stating that it has reduced the
   and                                                scope of the Defense Media Activity project and
• did not document the required economic              will conduct future BRAC projects in
   analysis or the consideration of feasible          accordance with DoD and Army regulations.
   alternatives at Fort Meade on the                  The U.S. Marine Corps is prepared to contribute
   DD Form 1391.                                      its share of the project costs. We consider these
                                                      comments to be responsive, and no additional
                                                      comments are required. We also received
                                                      comments from the Defense Media Activity.
                                                      Please see the recommendations table on the
                                                      back of this page.
                                                  i
               Report No. D-2009-022 (Project No. D2007-D000CG-0047.003)
                                   November 14, 2008

Recommendations Table
Client                              Recommendations           No Additional Comments
                                    Requiring Comment         Required
The Army Assistant Chief of Staff                             1., 2., 3.
for Installation Management




                                            ii
Table of Contents

Results in Brief                                                          i

Introduction                                                              1

       Objectives                                                        1
       Background                                                        1

Finding. BRAC 2005 Military Construction Project 64952, “Defense Media
Activity”                                                                 7

       Client Comments on the Finding and Our Response                   16
       Recommendations, Client Comments, and Our Response                17

Appendices

       A. Scope and Methodology                                          19
          Review of Internal Controls                                    20
       B. Prior Coverage                                                 23

Client Comments

       Department of the Army Comments                                   29
       Defense Media Activity Comments                                   32
Introduction
Objectives
The overall objective was to determine the accuracy of 2005 Base Realignment and
Closure (BRAC) military construction (MILCON) budget data. Specifically, we
determined whether the proposed MILCON was based on valid BRAC requirements,
whether the proposed MILCON was supported with required documentation, and
whether the BRAC analysis considered existing facilities. We reviewed the one project
undertaken in response to 2005 BRAC Recommendation 141, BRAC MILCON
Project 64952, “Defense Media Activity.”

See Appendix A for scope and methodology and a review of internal controls, and
Appendix B for prior coverage.

Background
Public Law 102-190, “National Authorization Act for Fiscal Years 1992 and 1993,”
Part A, “Defense Base Closure and Realignment,” mandated that the DoD Inspector
General (IG) investigate each military construction project. For BRAC 2005, Congress
did not pass a law with a similar mandate. The Service audit organizations are auditing
single-Service BRAC MILCON projects, while the DoD IG is reviewing selected multi-
Service1 projects and Defense-Wide Agencies and Activities projects. This report is one
in a series of DoD IG audits of multi-Service projects, and was requested by the Director,
Defense Media Activity Transition Team.

2005 Defense BRAC Commission Recommendation 141,
Defense Media Activity
The Secretary of Defense’s 2005 BRAC Recommendation 141 stated:

                 Realign Fort Belvoir, VA [Virginia], by relocating Soldier Magazine to
                 Fort Meade, MD [Maryland]. Realign Anacostia Annex, District of
                 Columbia, by relocating the Naval Media Center to Fort Meade, MD.
                 Realign 2320 Mill Road, a leased installation in Alexandria, VA, by
                 relocating Army Broadcasting-Soldier Radio/TV to Fort Meade, MD.
                 Realign 103 Norton Street, a leased installation in San Antonio, TX
                 [Texas], by relocating Air Force News Agency-Army/Air Force
                 Hometown News Service (a combined entity) to Fort Meade, MD.
                 Close 601 North Fairfax Street, a leased installation in Alexandria, VA,
                 by relocating the American Forces Information Service and the Army
                 Broadcasting-Soldier Radio/TV to Fort Meade, MD. Consolidate




1
 Multi-Service projects involve the move of one or more Services’ Components or activities to another
Service’s location.


                                                    1
               Soldier Magazine, Naval Media Center, Army Broadcasting-Soldier
               Radio/TV, and the Air Force News Agency-Army/Air Force
               Hometown News Service into a single DoD Media Activity at Fort
               Meade, MD.

The Secretary of Defense’s justification for this recommendation further stated:

               This recommendation creates a new DoD Media Activity by
               consolidating a number of military department media organizations
               with similar missions into a new organization. It also collocates the
               American Forces Information Service (AFIS) with the new DoD Media
               Activity and the existing Defense Information School.

               This recommendation meets several important Department of Defense
               objectives with regard to future use of leased space, rationalizing the
               presence of DoD activities within the NCR [National Capital Region],
               and enhanced security for DoD activities. The creation of a new DoD
               Media Activity as the result of consolidating a number of entities with
               similar missions promotes “jointness” and creates opportunities for cost
               savings and operational synergy. The co-location [sic] of AFIS with the
               new Activity will facilitate further consolidation of common support
               functions.

               Implementation will reduce the Department’s reliance on leased space,
               which has historically higher overall costs than government-owned
               space and generally does not meet antiterrorism force protection
               standards as prescribed in UFC [Unified Facilities Criteria] 04-010-01.
               The recommendation eliminates approximately 75,000 Usable Square
               Feet (USF) of leased administrative space. The relocation to a military
               installation that is outside the boundaries of the NCR provides a
               dispersion of DoD activities away from a dense concentration with [sic]
               the NCR. This, plus the immediate benefit of enhanced force protection
               afforded by a location within a military installation fence-line for those
               activities currently in leased space, will provide immediate compliance
               with force protection standards.

The BRAC Commission’s findings stated:
               The Commission found no reason to disagree with the recommendation
               of the Secretary of Defense.

Creation of the Defense Media Activity
The 2005 BRAC Recommendation 141, “Consolidate Media Organizations into a New
Agency for Media and Publications,” requires DoD to consolidate the Army Broadcasting
Service, Soldiers Radio and TV, Soldiers Media Center, the Naval Media Center, the Air
Force News Agency, and the Army and Air Force Hometown News Service into a new
Defense Media Activity (DMA) located at Fort Meade, Maryland. It also requires the
Department to collocate the Alexandria, Virginia, operations of the American Forces
Information Service (AFIS), a DoD field organization under the Assistant Secretary of
Defense, Office of Public Affairs, with the new facility at Fort Meade, Maryland.




                                                   2
To achieve the full transformational potential of the 2005 BRAC, the Deputy Secretary of
Defense directed all of the above-mentioned organizations, along with media assets of the
Marine Corps, to consolidate into a single entity reporting to the Assistant Secretary of
Defense, Office of Public Affairs. This initiative will provide a streamlined
organizational structure and opportunities for additional economies of scale in the
execution of DoD media functions.

The mission of the DMA is fivefold.
   • Provide a variety of informational products to DoD and external audiences,
      through all types of media.
   • Communicate messages and themes from senior DoD leaders and spokespersons
      in order to support and improve quality of life and morale, promote situational
      awareness, and sustain readiness.
   • Provide U.S. radio and television news, information, and entertainment
      programming to Armed Forces personnel and other authorized users.
   • Provide high-quality visual information products depicting U.S. military activities
      and operations.
   • Provide media-related education and training for military and civilian personnel in
      career fields that meet DoD-wide entry-level skills and long-term career
      development requirements.

DoD Agencies Involved in Developing the DMA
The Army, the U.S. Army Corps of Engineers, and the DMA Transition Team are
working together to implement BRAC Recommendation 141. The Army is the executive
agent for implementing Recommendation 141, developing the business plan, and
developing the DD Form 1391, “Military Construction Project Data,” for BRAC
MILCON Project 64952, “Defense Media Activity.”

The U.S. Army Installation Management Command at Fort Meade is responsible for
performing an economic analysis for BRAC MILCON Project 64952, “Defense Media
Activity.” The U.S. Army Installation Management Command Master Planner should
provide documentation of an economic analysis to be included in the DD Form 1391 for
BRAC MILCON Project 64952, “Defense Media Activity.”

The U.S. Army Corps of Engineers Baltimore District is the construction agent for
BRAC MILCON Project 64952, “Defense Media Activity.” The U.S. Army Corps of
Engineers documented the October 2007 design charrette2 that was held at Fort Meade in
the Design Charrette Memorandum.

The DMA Transition Team was established by the Assistant Secretary of Defense for
Public Affairs memorandum, “BRAC Realignment and Organizational Transformation,”
December 5, 2006. The memorandum states that the Transition Team is responsible for


2
 A charrette is an intensive collaborative planning process that includes all interested parties. The design
charrette for Project 64952 was held at Fort Meade, Maryland, on October 10 and 11, 2007.


                                                      3
developing and managing the execution of business plans for the DMA project. The
DMA Transition Team is composed of Service and Office of Public Affairs
representatives, and a number of expert consultants. The DMA Transition Team Service
representatives are responsible for serving as a liaison between the Transition Team and
their Service, providing Service-unique perspectives, coordinating proposals, and issuing
papers and draft documents in advance of formal staffing for the DMA.

Military Construction
DoD Financial Management Regulation 7000.14-R, volume 2B, chapter 6, “Military
Construction/Family Housing Appropriations,” June 2006, requires that each proposed
MILCON project be supported by a “Military Construction Project Data,”
DD Form 1391. DoD Financial Management Regulation 7000.14-R, volume 2B,
chapter 7, “Base Realignment and Closure Appropriations,” June 2007, requires the
Services and the Defense-Wide Agencies and Activities to provide in their budget request
to Congress a DD Form 1391 for each BRAC MILCON project. The Army submitted
the Department of Army DoD Base Realignment and Closure 2005 Commission Fiscal
Year 2008/2009 Budget Estimates Justification Data Submitted to Congress, hereafter
referred to as the 2008/2009 J-Book, and the Department of Army DoD Base Realignment
and Closure 2005 Commission Fiscal Year 2009/2010 Budget Estimates Justification
Data Submitted to Congress, hereafter referred to as the 2009/2010 J-Book, for
congressional approval of amounts budgeted for 2005 BRAC implementation.

Army Regulation 415-15, “Army Military Construction Program Development and
Execution,” June 12, 2006, states:
   • [DD Form 1391] is the principal DoD and Army construction project justification document.
   • [DD Form 1391] must be clear, concise, logical, and complete and must effectively describe,
        justify, and price the project.

In addition, major Army Commands, the Department of the Army, and the U.S. Army
Corps of Engineers are required to review the need for each proposed MILCON project
and to confirm that the proposed project is the most cost-effective means of satisfying the
requirement.

Army Regulation 405-70, “Utilization of Real Property,” May 12, 2006, states: “When
space or facilities are to be acquired on an Army installation, the requesting tenant unit or
activity commander must justify all requirements to the installation commander.” The
activity commander uses DD Form 1450, “DoD Space Requirements,” for the
justification of requirements. The DD Form 1450 includes current authorized personnel
of an organization classified by pay grade or rank, and current square footage by type of
space. The commanders from each organization that is relocating to the DMA completed
a DD Form 1450 for justification of space requirements.




                                                  4
Department of the Army Pamphlet 415-3, “Economic Analysis: Description and
Methods,” August 10, 1992, states:
   • Every Army MILCON project must be supported by an economic analysis if an
      alternative to a proposed project exists. An economic analysis is the study of
      alternative ways of meeting a requirement by comparing costs and benefits.
   • If no other feasible options exist, a comparison is not possible. However, it is rare
      that a proposed project does not have any feasible alternatives. In all cases, the
      mission objective must be determined, and possible alternatives to the project
      must be investigated.
   • Economic analysis is to be documented in Section 11 of the DD Form 1391.

The Memorandum from the Principal Under Secretary of Defense, “Base Realignment
and Closure (BRAC) 2005 Implementation Planning,” dated September 21, 2005, states
that implementing the BRAC 2005 recommendations requires detailed plans that
delineate required actions, their timing, and necessary resources. These plans are referred
to as business plans and are the basis for allocating BRAC resources. This memorandum
also states that a DD Form 1391 must be completed and included in the business plan for
a MILCON project.

The Memorandum from the Under Secretary of Defense, “Base Realignment and Closure
(BRAC) 2005 Updated Business Plans,” dated June 22, 2007, states that changes to the
business plans are to be submitted to the Office of the Secretary of Defense BRAC Office
to support program and budget reviews in February and August until implementation is
complete. The February submission is to reflect changes made to the plans by the
preceding budget review, while the August submission goes to the Office of the Secretary
of Defense BRAC Office for the next Planning, Programming, Budgeting, and Execution
process.




                                            5
6
Finding: BRAC 2005 Military Construction
Project 64952, “Defense Media Activity”
The Army submitted a valid requirement to create a new Defense Media Activity by
consolidating Military Department media organizations into a new organization.
Initially, the Army could not justify the requirements for the new organization; however,
the DMA Transition Team made improvements to the supporting documentation to
substantiate the requirement. The Army did not provide adequate support for BRAC
MILCON Project 64952, “Defense Media Activity” in its DD Form 1391 for
Recommendation 141, “Consolidate Media Organizations into a New Agency for Media
and Publications.” The Army did not:
         • accurately present the number of BRAC MILCON personnel moving to the
             DMA,
         • completely justify square footage payable by BRAC MILCON dollars for
             BRAC MILCON Project 64952, “Defense Media Activity,” or
         • document an economic analysis.

Because the Army initially did not accurately present the requirements for the
2005 BRAC MILCON Recommendation 141 to Congress, the Army could neither ensure
that the DMA facility had the correct square footage, nor ensure that the estimated cost
for constructing the DMA was accurate. The Army subsequently has taken action to
correct the inaccuracies in order to present a more realistic representation of actual square
footage and costs. However, the U.S. Army Installation Management Command at Fort
Meade did not provide documentation of an economic analysis; therefore, the Army
cannot be completely confident that the new building will be the most cost-effective
option.

Requirements for the New Organization
The Office of the Secretary of Defense is creating a new Defense Media Activity with its
BRAC Recommendation 141. The Army meets the intent of the recommendation with
BRAC MILCON Project 64952, “Defense Media Activity,” and the project concept is a
valid requirement. The Army promotes “jointness,” and creates opportunities for cost
savings and operational synergy by consolidating a number of entities with similar
missions into a new Defense Media Activity.

However, the Army Office of the Assistant Chief of Staff for Installation Management
(ACSIM) initially submitted an inaccurate project to Congress. The Army Office of
ACSIM initially eliminated all general-purpose3 space for BRAC MILCON
Project 64952, “Defense Media Activity,” to keep estimated costs down for the


3
  General-purpose space includes “Administrative Facility,” “Computer Center,” “IT Communications
Center,” “Enclosed Vehicle Storage,” “Controlled Humidity Warehouse,” and “Plant/Utilities Building,”
the line-item categories used in DD Forms 1391 for BRAC Military Construction Project 64952, “Defense
Media Activity.”


                                                  7
2008/2009 J-Book. The Army Office of the ACSIM did not include a DD Form 1391 in
the original approved business plan, as required. The Army included Marine Corps News
personnel, who were not part of the original BRAC Recommendation 141. Therefore, we
determined that the original documentation used to justify the new organization was
inadequate to support the number of personnel, the square footage, or the cost estimates
associated with the project.

In November 2006, the Army Office of the ACSIM asked the DMA Transition Team to
create a DD Form 1391 based on the approved business plan. The Army Office of the
ACSIM was aware that the budget documentation was inaccurate and unsupported for
BRAC MILCON Project 64952, “Defense Media Activity,” but submitted the
documentation to Congress in the 2008/2009 J-Book. Officials from the Army Office of
the ACSIM told the DMA Transition Team that any changes to the DD Form 1391 and
business plan could be included in future updates. The Chairman of the Infrastructure
Steering Group signed a memo on June 22, 2007, that stated that updates to the business
plans must be made in February and August of each year until the project is completed.
Subsequently, in the 2009/2010 J-Book, the Army Office of the ACSIM included the
space that initially had been eliminated and updated the estimated cost from $47 million
to $61 million.

Project Costs of the Defense Media Activity
The Army initially lowered the estimated cost submitted in the 2008/2009 J-Book by
eliminating square footage totals from the line items of the DD Form 1391 for BRAC
MILCON Project 64952, “Defense Media Activity.” The Army eliminated all
general-purpose “Administrative Facility,” “Computer Center,” “IT Communications
Center,” “Enclosed Vehicle Storage,” “Controlled Humidity Warehouse,” and
“Plant/Utilities Building” square footage from the DD Form 1391 for the project.
According to the Principal Under Secretary of Defense memorandum, “BRAC 2005
Implementation Planning,” September 21, 2005, a DD Form 1391 must be completed and
included in a business plan for MILCON projects. The Army did not have a
DD Form 1391 included in its initial business plan. In November 2006, the Army
requested that the DMA Transition Team revise the estimated cost in a DD Form 1391
that had been created during an October 2006 planning charrette from $70 million to
$47 million. The Army needed to develop a DD Form 1391 showing a total cost of
$47 million for the 2008/2009 J-Book that matched the approved business plan. The
DMA Transition Team questioned the accuracy of the Army’s business plan and was
unable to reduce the estimated costs on the DD Form 1391 to align with those in the
business plan without eliminating necessary square footage.

In January 2007, the Army created a DD Form 1391 using the lower cost amounts from
its January 2006 business plan. The Army eliminated all planned space from general-
purpose “Administrative Facility,” “Computer Center,” “IT Communications Center,”
“Enclosed Vehicle Storage,” “Controlled Humidity Warehouse,” and “Plant/Utilities
Building” in the DD Form 1391 to lower estimated costs and be in alignment with the
approved business plan. The Army submitted the DD Form 1391 to Congress in 2007 for



                                            8
inclusion in the 2008/2009 J-Book with a total of 111,625 square feet and an estimated
cost of $47 million. The square footage and estimated cost were unrealistic and
inaccurate.

In January 2008, the Army included the previously removed line items and square
footage in the DD Form 1391 for the 2009/2010 J-Book, resulting in a total square
footage of 185,870 and an estimated cost of $61 million. The Army’s inclusion of
previously removed square footage increased the total square footage of the project by
74,245 square feet. The Army presented a more realistic depiction of the BRAC
MILCON Project 64952, “Defense Media Activity,” details to Congress by including this
square footage.

Inclusion of the Marine Corps News
In February 2007, the Marine Corps News and the DMA Transition Team expressed a
mutual interest in including the Marine Corps News in the DMA to be located at Fort
Meade. The Deputy Secretary of Defense signed a memo on September 24, 2007, that
included the Marine Corps News as a part of the DMA, even though the Marine Corps
News was not part of BRAC Recommendation 141. The Deputy Secretary of Defense
included the Marine Corps News with the activities listed in Recommendation 141 to
make more efficient use of the recommendation and make the DMA a purple-suited4
organization.

The Army cannot use BRAC MILCON dollars to pay for the Marine Corps News portion
of the construction because the Marine Corps News was not part of Recommendation 141
and was not approved by the BRAC Commission or the Secretary of Defense. The Army
is currently including 26 personnel in the BRAC MILCON supporting documentation
who cannot be paid for with BRAC MILCON dollars. The Army is including 18 Marine
Corps News personnel who were not part of Recommendation 141, and the Naval Media
Center overstated its personnel by 8.

Documentation of Project Personnel, Square Footage,
and Economic Analysis
The Army does not have accurate supporting documentation for total personnel or square
footage for BRAC MILCON Project 64952, “Defense Media Activity.” The Army
included 26 personnel who cannot be paid for with BRAC dollars. The Army included
the Marine Corps News in BRAC MILCON Project 64592, “Defense Media Activity,”
adding 18 personnel to the project. Additionally, Naval Media Center officials overstated
the number of personnel moving to the DMA in the DD Form 1450 they submitted for
the project. We compared manning documents with the Naval Media Center
DD Form 1450 and identified an overstatement of eight personnel by the Naval Media
Center.



4
 A military function or organization that uses resources from the various branches–Army, Air Force, Navy,
and Marine Corps.


                                                   9
The Deputy Secretary of Defense included the Marine Corps News as a part of the DMA,
which will be relocated to Fort Meade. However, the Marine Corps News cannot be paid
for with BRAC MILCON dollars. The Army’s including the Marine Corps News in the
BRAC MILCON personnel calculations and the Naval Media Center’s overstating
personnel by eight people affected the calculation of BRAC MILCON square footage.
We calculated the correct square footage of 183,314 for the portion of the DMA facility
that can be paid for with BRAC MILCON dollars. The Army overstated the space to be
paid for with BRAC dollars by 2,556 square feet. In addition, the Army’s inaccurate
square footage affected the calculation of the estimated BRAC MILCON project cost.
The Army overstated estimated BRAC MILCON costs by about $833,000 in the
2009/2010 J-Book.

Personnel
The Army incorrectly included the Marine Corps News and the eight Naval Media Center
personnel in the total personnel for the BRAC MILCON Project 64952, “Defense Media
Activity.” The Naval Media Center included eight personnel on its DD Form 1450 who
are part of Marine Corps News. Therefore, the Naval Media Center double-counted eight
Marine Corps News personnel. The 8 double-counted Marine Corps News personnel and
the 18 Marine Corps News personnel total the overstatement of 26 personnel for the
BRAC MILCON portion of the DMA.

The DMA Transition Team provided DD Forms 1450 that were prepared by the agencies
moving to the DMA, and these forms listed by agency the number of personnel moving
to the DMA. The DD Forms 1450 listed a total of 645 personnel. We reviewed the
manning documents that supported the DD Forms 1450 and identified a discrepancy in
one DD Form 1450 of eight people, because the Naval Media Center double-counted
eight Marine Corps News personnel. The Marine Corps News did not prepare a DD
Form 1450, because it was not part of BRAC Recommendation 141. The Army added
the 18 Marine Corps News personnel to BRAC MILCON Project 64952, “Defense Media
Activity” in February 2007, bringing the total personnel for the DMA facility to 663.

The Secretary of Defense did not include the Marine Corps News in his recommendation
to the 2005 BRAC Commission. The Deputy Secretary of Defense later added the
Marine Corps News to the DMA to provide a streamlined organizational structure and
opportunities for additional economies of scale in the execution of DMA functions.
However, the Marine Corps, not being part of the original recommendation, has no
BRAC MILCON dollars to use toward the construction of the DMA facility. The Marine
Corps should provide MILCON dollars to fund its part of the DMA construction costs.




                                          10
Table 1 provides a comparison of personnel totals shown on the DD Forms 1450 as
moving to the DMA with the personnel authorized to be paid for by BRAC MILCON
dollars.

                                Table 1. Personnel Comparison

        Activity                  Personnel in          Total Personnel      Personnel Authorized for
                                DD Forms 1450           Moving to DMA            BRAC MILCON
Air Force News                         150                    150                     150
Naval Media Center                     149                    1411                    141
Soldiers Media Center                   86                     86                      86
AFIS                                   260                    260                     260
Marine Corps News                       182                    18                       03
  Total                                663                    655                     637
1
  Reflects double-counting of eight U.S. Marines Corps personnel working at Naval Media Center.
2
  Marine Corps News did not submit a DD Form 1450. This number reflects total personnel expected to
move to DMA.
3
  The Marine Corps News is not part of BRAC Recommendation 141 and is not authorized BRAC
MILCON funding.

The Army should correct the number of personnel for the DMA facility by eliminating
the eight double-counted personnel and by eliminating Marine Corps News personnel
from the BRAC MILCON portion of the personnel count. A correct count of personnel
moving to the DMA is necessary because it directly affects the size of the building itself.
The Naval Media Center’s double-counting of 8 Marine Corps News personnel and the
inclusion of the 18 Marine Corps News personnel led to an incorrect calculation of square
footage needed for the new facility.

Additionally, the Army should obtain funding from the U.S. Marine Corps to pay for the
addition of the Marine Corps News to the DMA project. The Marine Corps News should
pay its share of the prorated amount for the facility. The Marine Corps News has 18 out
of the 655 personnel moving to the DMA facility, or about 2.75 percent of the people.
The Marine Corps News should pay about 2.75 percent of the total cost of the facility.
The Marine Corps News will owe about $1.68 million for its portion of the DMA, if the
project cost remains at $61 million.

Square Footage
The Army did not provide adequate support for the square footage listed in the
DD Form 1391 for BRAC MILCON Project 64952, “Defense Media Activity.” Each
organization that is relocating to the DMA provided the DMA Transition Team with a
DD Form 1450 that lists the positions moving to the new facility at Fort Meade.
However, the organizations provided no supporting documentation for the square footage
those positions need.

The U.S. Army Corps of Engineers substantiated the square footage numbers in an
October 11, 2007, Design Charrette Memorandum, but the numbers in the memorandum
did not match the DD Form 1391 line-item totals for square footage. The U.S. Army


                                                  11
Corps of Engineers did not break down the Design Charrette Memorandum into the same
line items that were shown in the DD Form 1391. The DMA Transition Team created a
spreadsheet to put the items from the Design Charrette Memorandum into the appropriate
DD Form 1391 line-item categories. The DMA Transition Team worked cooperatively
with the IG audit team to correct inaccuracies in the spreadsheet.

The DMA Transition Team was able to reconcile the differences between the
Design Charrette Memorandum and the 2009/2010 J-Book DD Form 1391; however, the
DMA Transition Team created the spreadsheet based on the incorrect number of
personnel moving to the DMA (663), not on the correct BRAC MILCON number of
personnel (637). The DMA Transition Team overstated media production space for
BRAC MILCON Project 64952, “Defense Media Activity,” by 2,556 square feet. The
DMA Transition Team included the Marine Corps News, which was 2,044 square feet
according to the Design Charrette Memorandum, but the Marine Corps News was not
part of BRAC Recommendation 141. The DMA Transition Team also included
8 double-counted personnel from the Naval Media Center’s DD Form 1450, adding
512 square feet (which we calculated by multiplying the 8 people times 64 square feet
per person, the number of square feet allotted per person in media production, as shown
in the Design Charrette Memorandum).




                                          12
Table 2 shows the differences among the 2008/2009 J-Book DD Form 1391 square
footage, the 2009/2010 J-Book DD Form 1391 square footage, the DMA Transition
Team spreadsheet square footage, the total MILCON square footage (which includes the
Marine Corps News), and the BRAC MILCON square footage totals.

                            Table 2. Square Footage Comparison

      Line Item          2008/2009         2009/2010            DMA             Total         Total
                           J-Book            J-Book           Transition       MILCON         BRAC
                        DD Form 1391      DD Form 1391          Team                         MILCON
                                                             Spreadsheet*
Administrative Facility             -            55,565          51,675             51,675      51,675
Media Production              52,524              47,524         51,441             50,929      48,885
Facility
Televideo Center              58,821             55,021             51,640          51,640      51,640
Computer Center                     -              4,000              5,109          5,109       5,109
IT Communications                   -              1,980              2,475          2,475       2,475
Center
Enclosed Vehicle                    -              7,500              7,500          7,500       7,500
Storage
Antenna Facilities                280                280                280            280         280
Building
Controlled Humidity                 -              7,000              8,750          8,750       8,750
Warehouse
Plant/Utilities Building            -              7,000              7,000          7,000       7,000
 Total                       111,625            185,870            185,870        185,358      183,314
*The spreadsheet was created to reconcile the differences between the Design Charrette Memorandum and
the 2009/2010 J-Book DD Form 1391.

The Army should use the valid number of 655 total personnel to calculate the total of
185,358 square feet for the total MILCON project square footage. The Army should
eliminate the 18 Marine Corps News personnel and use the valid number of 637 BRAC
MILCON personnel to calculate the total of 183,314 square feet that can be paid for with
BRAC dollars.

The Army used an incorrect number of personnel to calculate costs in the 2008/2009 and
2009/2010 J-Book DD Forms 1391. In addition, the DMA Transition Team used an
incorrect number of personnel when creating the spreadsheet that reconciled the
differences between the Design Charrette Memorandum and the 2009/2010 J-Book
DD Form 1391. We calculated the adjusted square footage for authorized BRAC
MILCON Project 64952, “Defense Media Activity,” by multiplying the valid number of
637 personnel by the square footage allotments shown in the Design Charrette
Memorandum.

Table 3 shows a comparison of the estimated costs of the line items in the 2008/2009
J-Book DD Form 1391, the 2009/2010 J-Book DD Form 1391, the DMA Transition
Team spreadsheet, the total MILCON cost (including Marine Corps News), and the total
BRAC MILCON cost.


                                                 13
                      Table 3. Comparison of Estimated Costs (in $000)
       Line Item             2008/2009      2009/2010         DMA              Total         Total BRAC
                              J-Book         J-Book         Transition        MILCON          MILCON
                             DD Form        DD Form           Team
                                1391           1391        Spreadsheet*
Administrative Facility              -        10,168           9,456               9,456          9,456
Media Production               10,854          9,132           9,885               9,786          9,394
Facility
Televideo Center               15,453           13,641           12,803           12,803         12,803
Computer Center                      -             946            1,208            1,208          1,208
IT Communications                    -             436              545              545            545
Center
Controlled-Humidity                  -             664              830              830            830
Warehouse
Enclosed Vehicle Storage             -             507              507              507            507
Antenna Facilities                 307             167              167              167            167
Building
Plant/Utilities Building             -           1,271            1,271            1,271          1,271
Standby Generator                    -             543              543              543            543
Energy Management                  306             509              509              509            509
Control System
Connection
Intrusion Detection                153             152              152              152            152
System Installation
Sustainable Design and               -             730              730              730            730
Development, and Energy
Policy Act 2005
Antiterrorism Measures           2,406           1,325            1,325            1,325          1,325
Building Information               122           4,484            4,484            4,484          4,484
Systems
Electric Service                 1,373           2,673            2,673            2,673          2,673
Water, sewer, gas                  785             285              285              285            285
Steam and Chilled Water              -               74              74                74            74
Distribution
Paving, Walks, Curbs and         3,147           2,047            2,047            2,047          2,047
Gutters
Storm Drainage                     587             287              287              287            287
Site Imp                         4,698           3,621            3,621            3,621          3,621
Information Systems                389           1,598            1,598            1,598          1,598
Antiterrorism Measures             102             102              102              102            102
Subtotal                       40,682           55,362           55,102           55,003         54,611
Contingency (5%)                 2,034           2,768            2,755            2,750          2,731
Subtotal                       42,716           58,130           57,857           57,753         57,342
Supervision, Inspection &        2,435           3,313            3,298            3,292          3,268
Overhead (5.7 %)
Design/Build Design Cost         1,709                -                -                -              -
  Total                        46,860           61,443           61,115           61,045         60,610
  Total Rounded                47,000           61,000           61,000           61,000         61,000
 *The spreadsheet was created to reconcile the differences between the Design Charrette Memorandum and
 the 2009/2010 J-Book DD Form 1391.


                                                  14
The Army did not show accurate supporting documentation for the line items of the
2009/2010 J-Book DD Form 1391; therefore, the line-item square footage totals and total
estimated costs were incorrect. The Army should revise the internal documentation to
show corrected line-item amounts and notify the proper authorities of the changes.

Economic Analysis
The U.S. Army Installation Management Command at Fort Meade did not indicate
evidence of an economic analysis in Section 11 of the DD Form 1391 as required by
Department of the Army Pamphlet 415-3. Command officials included the following
statement about alternative options in the “Current Situation” section of the 2009/2010
J-Book DD Form 1391: “Existing permanent administrative facilities are fully utilized
and other on-post structures are unsuitable or uneconomical for renovation and
conversion. Short-term use of interim on-post or leased off-post facilities is not feasible.”
Command officials further stated in that DD Form 1391: “Alternative methods of
meeting this requirement have been explored during project development. This project is
the only feasible option to meet the requirement.” Command officials stated they
considered alternative options, but did not provide documentation of an economic
analysis for BRAC MILCON Project 64952, “Defense Media Activity.”

Command officials stated that they considered the renovation of four buildings located at
Fort Meade as alternatives for BRAC MILCON Project 64952. Further, the Army stated
that any renovation would be contingent on the approval of MILCON Project 55706I,
“902 Division Military Intelligence Group Headquarters and Operations Center,” which
would accommodate personnel that would move from the four buildings that were
considered as alternatives for BRAC MILCON Project 64952. The Army officials
explained that, because they did not receive approval for MILCON Project 55706I,
personnel remained in the four buildings. Therefore, the Army considered the
alternatives to BRAC MILCON Project 64952 infeasible. One of the four buildings that
the Army originally considered as an alternative was badly damaged by fire in 2006, and
all personnel that were stationed there were moved to other buildings. The Army noted
the possibility that the building could be renovated, but as of July 31, 2008, the building
had been condemned and slated for demolition.

Command officials stated that no economic analysis was completed or documented
because they identified no feasible alternatives to BRAC MILCON Project 64952.
However, the Army did not provide adequate documentation of the consideration of
alternatives.

As a result, the Installation Management Command did not demonstrate that the location
of BRAC MILCON Project 64952, “Defense Media Activity” at Fort Meade was the
most cost-effective way to meet the mission requirements of BRAC
Recommendation 141. The U.S. Army Installation Management Command should
document completion of an economic analysis in Section 11 of a DD Form 1391 for all
future BRAC projects.




                                             15
Management Action Taken
In September 2008, the DMA Transition Team officials stated that the cost estimates had
increased to $83 million in the revised DD Form 1391. The DMA Transition Team
officials stated that the request for proposal for construction of the building was issued,
and the estimated contract award date for the project is January 20, 2009.

Conclusion
Generally, the Army submitted a valid requirement for Recommendation 141,
“Consolidate Media Organizations into a New Agency for Media and Publications,” with
BRAC MILCON Project 64952, “Defense Media Activity.” However, the Army initially
eliminated square footage solely to lower estimated costs in the 2008/2009 J-Book to
match the estimated MILCON costs shown in the business plan. The DMA Transition
Team worked cooperatively with the IG audit team to support the line-item categories
during the review. However, the Army still included 8 double-counted personnel from
the Naval Media Center and the 18 Marine Corps News personnel in the total for BRAC
MILCON Project 64952, “Defense Media Activity.” This inclusion led to an
overstatement in the BRAC MILCON space requirement of 2,556 square feet and an
overstatement in estimated BRAC MILCON costs of $833,000 in the 2009/2010 J-Book
DD Form 1391. Further, Army officials did not document an economic analysis
comparing all feasible alternatives.

Client Comments on the Finding and Our Response
Army Comments on an Economic Analysis
The Army Deputy ACSIM stated that the Army disagrees with the section of the finding
discussion of our draft report about the completion of an economic analysis. He stated
that the Army believes an exception to the requirement of an economic analysis existed
for BRAC Recommendation 141. He stated that planners considered alternatives to new
construction, but none were feasible. The Army Deputy ACSIM stated that Fort Meade
has no excess buildings, and therefore, the Army did not have the option to renovate
existing facilities to accommodate the DMA. The Army believed no economic analysis
was needed because the only option was to build new.

Our Response
While we agree that an economic analysis may not have been feasible, the Army did not
provide adequate documentation that the placement of BRAC MILCON Project 64952,
“Defense Media Activity,” at its current location at Fort Meade was the most cost-
effective way to meet the mission requirements of BRAC Recommendation 141.




                                            16
Recommendations, Client Comments, and Our
Response
We recommend that the Army Assistant Chief of Staff for Installation
Management:

1. Notify the proper authorities of cost changes and revisions to internal
documentation to eliminate the excess square footage resulting from double-
counting of Marine Corps News personnel.

Army Comments
The Army Deputy ACSIM agreed with the recommendation to reduce the scope of the
project and noted the Army had used a lower square footage of 178,086 in a
September 2008 request for proposal.

Our Response
The comments were responsive, and no further comments are required.

Defense Media Activity Comments
Although not required to comment, the DMA Deputy Director agreed with the
recommendation and stated that the project scope has been reduced to 178,086 square
feet.

Our Response
We accept the DMA Deputy Director’s comment as further evidence that the Army
Office of ACSIM is taking the necessary steps to reduce the scope of the project.

2. Request the U.S. Marine Corps to pay its share of about 2.75 percent of the
project costs for the inclusion of the U.S. Marine Corps News personnel in Base
Realignment and Closure Military Construction Project 64952, “Defense Media
Activity.”

Army Comments
The Army Deputy ACSIM agreed with the recommendation and stated that the U.S.
Marine Corps is prepared to contribute its fair share of the project costs.

Our Response
The comments were responsive, and no further comments are required.

Defense Media Activity Comments
Although not required to comment, the DMA Deputy Director agreed with the
recommendation and stated that the U.S. Marine Corps is ready to contribute its fair share
of facility costs in FY 2010.


                                           17
Our Response
We accept the DMA Deputy Director’s comment as further evidence that the U.S. Marine
Corps is ready to contribute its share of the project costs.

3. For future Base Realignment and Closure projects, follow the DoD Financial
Management Regulation and Army Instructions by conducting an economic
analysis when the project is first considered, justifying the user needs and unit cost
with supporting documentation for the DD Form 1391.

Army Comments
The Army Deputy ACSIM agreed with the recommendation and stated that severe time
constraints forced the Army to make assumptions about the cost and scope of the DMA
facility that may have precluded strict adherence to regulatory requirements. He stated
that future projects will be conducted in accordance with the DoD Financial Management
Regulation and Army Instructions.

Our Response
The comments were responsive, and no further comments are required.




                                          18
Appendix A. Scope and Methodology
We conducted this performance audit from October 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusion based on our audit objectives.

We conducted this audit at the request of the Director, DMA Transition Team to review
the 2005 Defense BRAC Recommendation 141. BRAC Recommendation 141 states that
Defense media organizations are to consolidate and relocate to Fort Meade, Maryland.
Army planning officials created BRAC MILCON Project 64952, “Defense Media
Activity,” to fulfill this BRAC mission. We conducted this audit to determine the
accuracy of the MILCON budget data for the project.

We met with officials and toured the facilities at losing sites and met with officials at the
gaining site. We held meetings and working sessions with DMA Transition Team
officials at AFIS in Alexandria, Virginia. We met with officials at the Naval Media
Center, Washington, D.C.; Soldiers Media Center, Arlington, Virginia; U.S. Marine
Corps, Arlington, Virginia; and Air Force News, San Antonio, Texas; Army Office of the
ACSIM in Arlington, Virginia; Fort Meade Installation Management Command in Fort
Meade, Maryland; and the U.S. Army Corps of Engineers in Baltimore, Maryland.

We reviewed DoD and Army criteria pertaining to BRAC MILCON cost estimates,
economic analysis, review and validation, required documentation, and budget reporting:

    •   DoD Financial Management Regulation 7000.14-R, volume 2B, chapter 6,
        “Budget Formulation and Presentation,” June 2006;
    •   DoD Financial Management Regulation 7000.14-R, volume 2B, chapter 7,
        “Budget Formulation and Presentation,” June 2006;
    •   Unified Facilities Criteria 3-701-07, DoD Facilities Pricing Guide, July 2, 2007;
    •   Unified Facilities Criteria 2-000-05N, “Facility Planning Criteria for
        Navy/Marine Corps Shore Installations,” January 31, 2005;
    •   Principal Under Secretary of Defense Memorandum, “Base Realignment and
        Closure (BRAC) 2005 Implementation Planning,” September 21, 2005;
    •   Army Regulation 405-70, “Real Estate: Utilization of Real Property,”
        May 12, 2006;
    •   Army Regulation 415-15, “Army Military Construction Program Development
        and Execution,” October 25, 1999;
    •   Department of the Army Pamphlet 415-3, “Economic Analysis: Description and
        Methods,” August 10, 1992;




                                             19
    •   Engineering and Construction Bulletin 2003-8, revision 1, “DD Forms 1391
        Preparation Planning Charrette Process,” November 6, 2003; and
    •   Engineer Technical Letter 415-3-1, “DD Forms 1391 Review and Certification
        Standard Operating Procedure,” June 30, 2000.

Additionally, we reviewed 2005 BRAC Recommendation 141, “Consolidate Media
Organizations into a New Agency for Media and Publications,” the Department of the
Army 2008/2009 J-Book dated February 2007, and the Department of the Army
2009/2010 J-Book dated February 2008.

We compared the MILCON budget data submitted on the DD Forms 1391 with
applicable criteria to determine whether the data were accurate, whether the project was
valid and supported, and whether the BRAC analysis considered existing facilities. We:
    • reviewed the approved business plan, reviewed the 2008/2009 and 2009/2010 J-
        Book DD Forms 1391, and Recommendation 141;
    • compared supporting documentation such as the Design Charrette Memorandum
        and the DMA Transition Team Spreadsheet to the line items of the
        DD Forms 1391;
    • analyzed the DD Forms 1391 for economic analysis documentation; and
    • requested related economic analysis from U.S. Army Installation Management
        Command.

Specifically, we reviewed the supporting documentation for the number of authorized
personnel and the accuracy of the administrative square footage and cost calculations.
We traced full-time equivalents from each media organization from the DD Forms 1450
to the organization manning documents by comparing billet numbers, billet titles, and
grade and rank. We verified the full-time equivalents against the square footage
calculations provided in the DMA Design Charrette Memorandum and verified the
calculations against square footage criteria in Army Regulation 405-70, “Utilization of
Real Property.” We analyzed the estimated cost calculations for clerical errors.

We created tables that show differences among the personnel, square footage, and cost
totals that we calculated and the supporting documentation that was provided to us by the
DMA Transition Team. We accepted the Army’s costs of unique line items in our
calculations. We did not determine whether the DMA accurately portrayed the optimum
number of full-time equivalents needed to accomplish the mission of the organization.

Review of Internal Controls
We determined that an internal control weakness in the BRAC MILCON Project 64952,
Defense Media Activity,” existed as defined by DoD Instruction 5010.40, “Managers’
Internal Control (MIC) Program Procedures,” January 4, 2006. The identified internal
control weakness is not material. The Army’s internal controls were not properly
implemented because the Army did not follow the guidance issued by the Principal
Under Secretary of Defense in the September 21, 2005, memorandum, “BRAC 2005
Implementation Planning.” Army officials did not follow the guidance in developing the
business plan for the Defense Media Activity; that guidance requires that a


                                           20
DD Form 1391 be included upon submission. In addition, the Army did not follow
established criteria for documenting the economic analysis or considering feasible
alternatives for the Defense Media Activity. Implementing Recommendations 1., 2., and
3. should correct these weaknesses.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                          21
22
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Army Audit
Agency, the Naval Audit Service, and the Air Force Audit Agency have issued 54 reports
discussing the Defense BRAC MILCON. Unrestricted GAO reports can be accessed
over the Internet at http://www.gao.gov. Unrestricted Army, Navy, and Air Force reports
can be accessed at http://www.hqda.army.mil/aaaweb,
http://www.hq.navy.mil/navalaudit, and http://www.afaa.hq.af.mil.

GAO
GAO Report No. GAO-08-159, “Military Base Realignments and Closures: Cost
Estimates Have Increased and Are Likely to Continue to Evolve,” December 2007

GAO Statement No. GAO-05-905, “Military Bases: Observations on DoD’s 2005 Base
Realignment and Closure Selection Process and Recommendations,” July 18, 2005

GAO Statement No. GAO-05-614, “Military Base Closures: Observations on Prior and
Current BRAC Rounds,” May 3, 2005

GAO Report No. GAO-05-138, “Military Base Closures: Updated Status of Prior Base
Realignments and Closures,” January 2005

Army
Army Audit Agency Report No. A-2008-0224-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Forces Command and U.S. Army Reserve
Command Headquarters Building,” August 21, 2008

Army Audit Agency Report No. A-2008-0214-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center Fort Hamilton, New
York,” August 21, 2008

Army Audit Agency Report No. A-2008-0205-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center Missoula, Montana,”
August 4, 2008

Army Audit Agency Report No. A-2008-0125-ALI, “Base Realignment and Closure
2005 Construction Requirements: Vehicle Maintenance Complex Fort Bragg, North
Carolina,” July 31, 2008

Army Audit Agency Report No. A-20008-0194-ALI, “Base Realignment and Closure
2005 Construction Requirements: Headquarters, 1st Armor Training Brigade Fort
Benning, Georgia,” July 28, 2008




                                          23
Army Audit Agency Report No. A-2008-0124-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Greenlief Training Site,
Hastings, Nebraska,” July 9, 2008

Army Audit Agency Report No. A-2008-0181-ALI, “Base Realignment and Closure
2005 Construction Requirements: Restationing the Air Defense Artillery School, Fort
Sill, Oklahoma,” July 7, 2008

Army Audit Agency Report No. A-2008-0183-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Scranton,
Pennsylvania,” July 2, 2008

Army Audit Agency Report No. A-2008-0171-ALI, “Base Realignment and Closure
2005 Construction Requirements: Combat Aviation Brigade Complex, Fort Bliss, Texas,”
June 23, 2008

Army Audit Agency Report No. A-2008-0126-ALI, “Base Realignment and Closure
2005 Construction Requirements: 4th Brigade Combat Team Complex, Fort Bragg, North
Carolina,” June 9, 2008

Army Audit Agency Report No. A-2008-0130-ALO, “Base Realignment and Closure
2005 Construction Requirements: Consolidated Health/Dental Clinic, Fort Riley,
Kansas,” May 27, 2008

Army Audit Agency Report No. A-2008-0131-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center McAlester Army
Ammunition Plant, Oklahoma,” May 13, 2008

Army Audit Agency Report No. A-2008-0129-ALO, “Base Realignment and Closure
2005 Construction Requirements: Airfield Pavement Repair, Fort Riley, Kansas,”
May 13, 2008

Army Audit Agency Report No. A-2008-0128-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Totten, New
York,” May 12, 2008

Army Audit Agency Report No. A-2008-0122-ALI, “Base Realignment and Closure
2005 Construction Requirements: First Brigade Combat Team Complex, Fort Bliss,
Texas,” May 5, 2008

Army Audit Agency Report No. A-2008-0112-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Middletown,
Connecticut,” April 29, 2008




                                          24
Army Audit Agency Report No. A-2008-0117-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Grand Prairie Reserve
Complex, Texas,” April 23, 2008

Army Audit Agency Report No. A-2008-0095-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Cedar Rapids, Iowa,”
March 20, 2008

Army Audit Agency Report No. A-2008-0088-ALI, “Base Realignment and Closure
2005 Construction Requirements: Dental Clinic, Fort Bliss, Texas,” March 18, 2008

Army Audit Agency Report No. A-2008-0078-ALO, “Base Realignment and Closure
2005 Construction Requirements: Infantry Brigade Combat Team Complex, Fort Knox,
Kentucky,” March 3, 2008

Army Audit Agency Report No. A-2008-0066-ALI, “Base Realignment and Closure
2005 Construction Requirements: Division Headquarters, Fort Carson, Colorado,”
February 13, 2008

Army Audit Agency Report No. A-2008-0064-ALI, “Base Realignment and Closure
2005 Construction Requirements: Brigade Combat Team, Fort Carson, Colorado,”
February 13, 2008

Army Audit Agency Report No. A-2008-0063-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Reserve Center, Fort Hunter Liggett,
California,” February 12, 2008

Army Audit Agency Report No. A-2008-0060-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Paducah, Kentucky,”
February 8, 2008

Army Audit Agency Report No. A-2008-0055-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Chaffee,
Arkansas,” February 4, 2008

Army Audit Agency Report No. A-2008-0054-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Vancouver,
Washington,” February 4, 2008

Army Audit Agency Report No. A-2008-0039-ALO, “Base Realignment and Closure
2005 Construction Requirements: Division Headquarters and Sustainment Brigade
Headquarters, Fort Riley, Kansas,” January 14, 2008

Army Audit Agency Report No. A-2008-0038-ALO, “Base Realignment and Closure
2005 Construction Requirements: Army Reserve Southeast Regional Readiness
Sustainment Command, Fort Jackson, South Carolina,” January 9, 2008



                                         25
Army Audit Agency Report No. A-2008-0024-ALO, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Reserve Northwest Regional Readiness
Sustainment Command, Fort McCoy, Wisconsin,” December 20, 2007

Army Audit Agency Report No. A-2008-0023-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Red River Army
Depot, Texas,” December 5, 2007

Army Audit Agency Report No. A-2007-0242-ALO, “Base Realignment and Closure
2005 Construction Requirements: Battle Command Training Center, Fort Riley,
Kansas,” September 28, 2007

Army Audit Agency Report No. A-2007-0241-ALO, “Base Realignment and Closure
2005 Construction Requirements: Child Development Center, Fort Riley, Kansas,”
September 28, 2007

Army Audit Agency Report No. A-2007-0240-ALI, “Base Realignment and Closure
2005 Construction Requirements: U.S. Army Training and Doctrine Command
Headquarters, Fort Eustis, Virginia,” September 28, 2007

Army Audit Agency Report No. A-2007-0235-ALI, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Dix, New Jersey,”
September 26, 2007

Army Audit Agency Report No. A-2007-0219-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Camp Dodge, Iowa,”
September 14, 2007

Army Audit Agency Report No. A-2007-0218-ALI, “Base Realignment and Closure
2005 Construction Requirements United States Military Academy Preparatory School:
United States Military Academy, New York,” September 7, 2007

Army Audit Agency Report No. A-2007-0136-ALO, “Base Realignment and Closure
2005 Construction Requirements: Armed Forces Reserve Center, Fort Campbell,
Kentucky,” May 24, 2007

Army Audit Agency Report No. A-2006-0139-ALO, “Programming, Administration, and
Execution System DD Forms 1391: Assistant Chief of Staff for Installation
Management,” June 21, 2006




                                        26
Navy
Naval Audit Service Report No. N2008-0014, “Selected Base Closure and Realignment
Department of the Navy Military Construction Projects Proposed for Fiscal Year 2009,”
December 19, 2007

Naval Audit Service Report No. N2008-0002, “Selected Department of the Navy Military
Construction Projects Proposed for Fiscal Year 2009,” October 17, 2007

Naval Audit Service Report No. N2007-0032, “Selected Base Realignment and Closure
Military Construction Projects Proposed for Fiscal Year 2008,” May 10, 2007

Naval Audit Service Report No. N2007-0006, “Selected Military Construction, Navy
Projects Proposed for Fiscal Year 2008,” December 4, 2006

Naval Audit Service Report No. N2006-0030, “Proposed Fiscal Year 2006-2007
Department of the Navy Military Construction Projects Resulting from Fiscal Year 2005
Base Closure and Realignment,” June 6, 2006

Air Force

Air Force Audit Agency Report No. F2006-0064-FDS000, “Construction Funds
Headquarters Air Education and Training Command, Randolph AFB, TX,”
September 8, 2006

Air Force Audit Agency Report No. F2006-0007-FD1000, “Pacific Air Forces Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0008-FD1000, “Air Education and Training
Command Base Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0009-FD1000, “Air Combat Command Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0010-FD1000, “Air National Guard Base
Realignment and Closure Requirements Planning,” August 23, 2006

Air Force Audit Agency Report No. F2006-0006-FD1000, “Air Force Reserve Command
Base Realignment and Closure Requirements Planning,” August 3, 2006

Air Force Audit Agency Report No. F2006-0001-FB4000, “2005 Base Realignment and
Closure – Air Force Data Collection,” November 9, 2005




                                          27
28
Department of the Army Comments




                  Click to add JPEG file




                                 29
Click to add JPEG file




               30
Click to add JPEG file




               31
Defense Media Activity Comments


                                             Final Report
                                              Reference




                                           Revised

                  Click to add JPEG file




                                  32
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the Department
of Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Gwynne M. Roberts
Gary B. Dutton
Rachel L. Herman
Colin E. Pingree
S. Neil Holloway
Allison Tarmann
